OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

March 24, 2021
VIA ELECTRONIC DELIVERY
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Gianinna Gallardo v. Secretary of the Florida Agency for Health Care
Administration, Case No. 20-1263

Dear Mr. Harris:
On behalf of Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a 45-day extension of time to file a response to the petition for certiorari, extending
the April 12, 2021 deadline to May 27, 2021. The Office of the Solicitor General has
multiple pressing deadlines with limited staff assistance, and the attorney in the Office who
is assigned to this case recently had a baby and is just returning from parental leave.
Therefore, Respondent requires a 45-day extension. Counsel for Petitioner does not object
to this request.
Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record
cc:

Bryan Gowdy
Counsel of Record

